                                                 NATIONAL SCIENCE FOUNDATION
                                                  OFFICE OF INSPECTOR GENERAL
                                                    OFFICE OF INVESTIGATIONS

                                           CLOSEOUT MEMORANDUM

Case Number: 107060017                                                                     Page 1 of 1



         Based upon a proactive review, I the Office of Inspector General, National Science Foundation,
         initiated an investigation of a specific NSF award related to international collaboration. 2 Our
         investigation did not detennine that any NSF funds had been used improperly. Accordingly, this
         case is closed.




         2




NSF OIG Fonn 2 (1Il02)
